                                                                                                                  i. 001
 DOE F 1325.8
   (8-89)
 EFG (07-90)


,. United States Government                                                                      Department of Energy

 memorandum
           DATE:       September 11, 2003
     REPLYTO:          IG-34 (A03NE045)                                       Audit Report No.: OAS-L-03-20
      SUBJECT:         Audit of Procurement Administration at the Oak Ridge National Laboratory
                TO:    Director, Office of Management, Budget and Evaluation/Chief Financial Officer, ME-1


                       The purpose of this report is to inform you of the results of our survey of procurement
                       administration at the Oak Ridge National Laboratory (Laboratory). This review was
                       initiated in May 2003 and fieldwork was conducted through August 2003. Our review
                       methodology is described in an attachment to this report.

                       INTRODUCTION AND OBJECTIVE

                      In Fiscal Year (FY) 2002, the Department of Energy's (Department) management
                      contractors procured approximately $6.4 billion worth of goods and services from
                      subcontractors. During that time, the Laboratory procured approximately $270 million
                      worth of goods and services from subcontractors. Due to the absence of a direct
                      contractual relationship with the subcontractor, the Department must rely on the prime
                      contractor to manage these subcontracts. Prime contractors are fully reimbursed for
                      subcontracted work and compensated through profit or fee to manage their subcontract
                      effort. Therefore, the Department must ensure that the prime contractor exercises
                      adequate controls over subcontracts. Problems at the subcontract level can have a
                      significant impact on the prime contractors' ability to meet its contractual obligations
                      and therefore fulfill the Department's mission.

                      The Office of Inspector General (OIG) previously identified that certain Department
                      contractors had not established adequate systems to award and administer subcontracts,
                      ensure that costs on contracts were reasonable, or conduct timely closeout of completed
                      subcontracts. Because of the importance of contractor performance in this area, we
                      initiated this audit to determine whether the Laboratory's management contractor
                      procured goods and services in accordance with Departmental policies and prudent
                      business practices.

                      CONCLUSIONS AND OBSERVATIONS

                   Based on the results of our limited review, nothing came to our attention to indicate
                   procurements made by UT Battelle (Battelle), the management contractor at the
                   Laboratory, did not generally follow Departmental policies and prudent business
                  ,practices. However, we noted that controls over Government property could be
                   strengthened. Specifically, at one of the major subcontractors, certain equipment could
                                                                                           S1 002




                                           -2-

 not be located and other items were not recorded in property accounting systems.
 Additionally, the subcontractor possessed items that had not been properly marked as
 Government property. We also found that the Laboratory's property management
 system did not properly record the disposition of a number of items by another
 subcontractor in October 2002. Details regarding the results of our audit sampling were
 separately communicated to Laboratory officials during the course of our review.

Concurrent with this review, the OIG conducted similar reviews of procurement
administration at the Argonne National Laboratory in Illinois and the National
Renewable Energy Laboratory in Colorado. The OIG is also conducting a
comprehensive review of subcontract administration at the Los Alamos and Sandia
National Laboratories in New Mexico and the Lawrence Livermore National
Laboratory in California. The results of these reviews will be discussed in separate
reports.

No formal recommendations are being made in this report and a response is not
required. However, we suggest that the Department require Battelle to ensure that
existing controls over Government property are functioning as intended at its major
subcontractors.

We appreciate the cooperation of your staff during o   review.



                                         Rickey•. Hass, Director
                                         Science, Energy, Technology,
                                           and Financial Audits
                                         Office of Audit Services
                                         Office of Inspector General

Attachment

cc:   Director, Office of Science
      Manager, Oak Ridge Operations Office
      Team Leader, Audit Liaison, ME-1.1
      Audit Liaison, Oak Ridge Operations Office
                                                                                             1j003




                                                                                Attachment
                                                                                Page 1 of2

SCOPE AND METHODOLOGY

The audit was performed at Oak Ridge National Laboratory in Tennessee from May
through August 2003. The universe of our sample consisted of all subcontracts valued
at $100,000 or more (excluding all streamlined purchase methods) as of September 30,
2002. To accomplish the audit objective we:

     *   Reviewed the Management and Operating contract between UT-Battelle and
         the Department of Energy;

     *   Reviewed data received from UT-Battelle of active, inactive, and closed first
         tier subcontracts;

     *   Reviewed listing of government furnished property assigned to
         subcontractors;

     *   Reviewed subcontract files for 40 active, 10 inactive, and 10 closed
         subcontracts;

     *   Verified existence of 100 randomly selected property items and reviewed
         completeness of property listing;

     *   Reviewed invoices for Fiscal Year 2002 for 10 cost type contracts in our
         sample;

     * Interviewed Laboratory officials from Audit and Management Advisory
       Services, Property Management Division, Health and Safety, ORNL
       Computer Network Security, Internal Security, Lab Protection Division, and
       the Contracts Division to gain an understanding of roles, responsibilities,
       policies, and procedures; and

    *    Conducted interviews with the Subcontract Administrators (Buyers) and the
         Technical Project Officers for each subcontract to clarify any
         questions/concerns.

  The audit was conducted in accordance with generally accepted Government
  auditing standards for performance audits and included tests of internal controls and
  compliance with laws and regulations to the extent necessary to satisfy the audit
  objective. Because our review was limited,, it would not necessarily have disclosed
  all internal control deficiencies that may have existed at the time of our audit. We
                                                                                          -   :-- g004




                                                                           Page 2 of 2


relied on computer-processed data to accomplish our audit objective. We
performed limited test work of data reliability during our audit sufficient to satisfy.
our objective. As part of this review, we also evaluated the Department's
implementation of the Government Performance and Results Act of 1993 and found
that the Department had not established performance measures for subcontract
administration at Oak Ridge National Laboratory.
DOE F "i25.8
   -:.-89)
 EFG (07-90)


United States Government                                                                      Deoartment of Eneray

memorandum
          DATE:      SEP 24 2003
      REPLY TO
      ATTN OF:     IG-34 (A03NE045)
      SUBJECT:     Final Report Package for" Audit of Procurement Administration at the Oak Ridge
                   National Laboratory" Audit Report Number: OAS-L-03-20

               TO: Frederick D. Doggett, Assistant Inspector General for Audit Services

                   Attached is the required final report package on the subject audit. The pertinent details are:

                       1. Actual Staff days:      151

                           Actual Elapsed days: 118
                       2. Names of OIG and/or contractor audit staff:

                           Assistant Director:    George W. Collard
                           Team Leader:           Bradley Milliron
                           Auditor-in-Charge:     Sandra Smoak
                           Audit Staff:           F. Scott Ward

                       3. Coordination with Investigations and Inspections:
                           Investigations:        Walt Warren
                                                  June 2, 2003

                           Inspections:           Henry Minner
                                                  May 30, 2003




                                                         Rickey . Hass, Director
                                                         Science, Energy, Technology,
                                                           and Financial Audits
                                                         Office of Audit Services
                                                         Office ofInspector General
                   Attachments:
                   1. Final Report (3)
                   2. Monetary Impact Report
                   3. Audit Project Summary Report
                   4. Audit Database Information Sheet
                                                                                                  Attachment 2

                        MONETARY IMPACT OF REPORT NO.: OAS-L-03-20

1. Title of Audit:        Audit of Procurement Administration at the Oak Ridge National Laboratory

2. Region/Office:         Science, Energy, Technology, and Financial Audits

3. Project No.:           A03NE045

4. Type of Audit:

      Financial:                                            Performance:          X
         Financial Statement          _Economy                          and Efficiency
         Financial Related                                    Program Results                      X
      Other (specify type):

5.
                                                                                        MGT.     POTENTIAL
            FINDING              BETTER USED              QUESTIONED COSTS            POSITION    BUDGET
                                                                                                  IMPACT
                                      Recurring
(A)              (B)           (C)      (D)          (E)           (F)         (G)       (H)        (I)
                Title         One      Amount     Questioned   Unsupported    Total   C=Concur     Y=Yes
                              Time       Per       Portion       Portion              N=Noncon     N=No
                                        Year                                          U=Undec
      N/A                                                                    N/A




TOTALS--ALL FINDINGS          $0      $0          $0           $0            $0         . .



6. Remarks: There is no current monetary impact or potential future savings.

7. Contractor:  N/A                                    10. Approvals:
8. Contract No.: N/A                                   Division
                                                        J       Director/Date:                             0
9. Task Order No.:         N/A                         Technical Advisor & Date
                                             Office of the Inspector General (OIG)
                                              Audit Project Summary Report (APS)


                                   September 16,        2003 7:11 AM                                                          Page 1
Report run on:


                           Ofc:      CGA     Title: PROCUREMENT ADMINISTRATION                      - OAK RIDGE
 Audit#: A03NE045

                                                          ****    Milestones    ****
                                              --------------         lanned    -------------                    Actual
                                            Profile              End of Survey                 Revised

                                                                  16-MAY-03            16-MAY-03          16-MAY-03
 Entrance Conference:       01-OCT-02
                                                                  15-AUG-03             15-AUG-03         15-AUG-03
           Survey Completed:
  Survey Completed:

 Field Work Complete:
                                                                                                          11-SEP-03
                                                                  15-SEP-03                                    -SEP-03
 Draft Report Issued:
 Exit Conference:
                                                                                        15-AUG-03         11-SEP-03      (R   )
 Completed with Report:                    30-SEP-03              15-AUG-03
                                               364                       91                                       118
 --------- Elapsed Days
 ----------   Staff Days:                           0                     0

  Date Suspended:                       Date Terminated:
  Date Reactivated:                     Date Cancelled:
                              0 (      )Report Number:    OAS-L-03-20
  DaysSuspended(Cur/Tot):
                                                           NATIONAL LABORATORY
  Rpt Title:  PROCUREMENT ADMINISTRATION AT THE OAK RIDGE


                                            ****    Audit Codes and Personnel ****


  Aud Type:        Not Found
                                                                        AD:      256                MILLIRON
  Category: OTH   OTHER
                  Not Found                                             AIC:     753                SMOAK
  DOE-Org:
                  PROCUREMENT AND GRAN                                  HDQ-Mon: 421                SCHULMAN
  Maj Iss: 009
              MRA MULTI-REGION AUDIT                                    ARM:             459        COLLARD
  Site:
                                               ****       Task Information ****

      Task No:
      Task Order Dt:                                         CO Tech. Rep:
      Orig Auth Hrs:                                         Orig Auth Costs:
      Current Auth:                                          Current Auth Cost:
      Tot Actl IPR Hr:                                       Tot Actl Cost:

                                                    ****       Time Charges ****

                 Emp/Cont Name                Numdays                Last Date

                 BOOS,    B                          .3              06-SEP-03

                 COLE, E                            1.9              26-JUL-03
                 ELLISON, J                         3.9              26-JUL-03
                 MILLIRON, B                       34.9              06-SEP-03
                 WARD,     F                       53.3              06-SEP-03
                 SMOAK,        S                   57.1              06-SEP-03
                  Total:                       151.4
                                                                                             Attachment 4

                       AUDIT DATABASE INFORMATION SHEET


1.    Project No.:   A03NE045

2.    Title of Audit: Audit of Procurement Administration at the Oak Ridge National Laboratory

3.    Report No./Date OAS-L-03-20 / September 11, 2003

4.    Management Challenge Area: Contract Administration

5.    Presidential Mgmt Initiative: Improved Financial Performance

6.    Secretary Priority/Initiative: N/A

7.    Program Code: SC

8.    Location/Sites: Oak Ridge National Laboratory

9.    Finding Summary:

          Based on the results of our limited review, nothing came to our attention to indicate
      procurements      made by UT Battelle (Battelle), the management contractor at the
      Laboratory, did not generally follow Departmental policies and prudent business
      practices. However, we noted that controls over government property could be
      strengthened.


10.   Keywords:
      * Procurement
      * Government Property
      * Management Contractors
      * Subcontractors
      * Subcontract Administration
